No.
IN THE SUPREME COURT OF
THE UNITED STATES
_________________________________________________

DOUGLAS LYNN KIRK
Petitioner
vs.

THE STATE OF TEXAS
Respondent
_________________________________________________
On Petition for a Writ of Certiorari
to the Texas Court of Criminal Appeals
_________________________________________________

APPENDIX
_________________________________________________
Gary Udashen
Texas Bar No. 20369590
gau@udashenanton.com
Brett Ordiway
Texas Bar No. 24079086
brett@udashenanton.com
Udashen Anton
2311 Cedar Springs Rd., Ste. 250
Dallas, Texas 75201
214-468-8100
214-468-8104 (fax)
Counsel for Petitioner

TABLE OF CONTENTS
1. The Texas Court of Criminal Appeals’s January 8, 2020, order denying Petitioner’s application for a writ of habeas corpus.
2. Petitioner’s memorandum in support of his fourth amended habeas application.
3. The trial court’s findings of fact and conclusions of law recommending relief
be denied.

2

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS FILE COPY
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

.

1/8/2020
~c ,co• . ·. ••· ; •·
KIRK, DOUGLAS LYNN Tr. ~t. t;Jd. ~~t9t2wU1!J 409-1266320-A WR-89,870-01
This is to advise that the Courfh;is'·d!lni!lctwi!h,out written order on the findings of
the trial court after hearing the ap~j(:;aii:oricJ!'Jr·writ of habeas corpus and on the
Court's independent review of the reC:.ofd'' 2 •••
Deana Williamson, Clerk
GARY A. UDASHEN
2311 CEDAR SPRINGS RD.
SUITE 250
DALLAS, TX 75201
*DELIVERED VIA E-MAIL*

D297-W011409-00

WRIT NO. D297-W011409-00
EX PARTE

§
§
§
§
§

DOUGLAS LYNN KIRK

FILED
TARRANT COUNTY
7/16/2019 10:57 AM
THOMAS A. WILDER
DISTRICT CLERK

IN THE 297TH
DISTRICT COURT OF
TARRANT COUNTY, TX

FOURTH AMENDED MEMORANDUM IN SUPPORT OF
APPLICATION FOR A WRIT OF HABEAS CORPUS
TO THE HONORABLE PRESIDING JUDGE:
At Douglas Kirk’s trial, he freely admitted shooting and killing Alphonso Beza and Pedro Diaz. But Kirk explained that he did so in selfdefense and in defense of his property. RR5: 196-98; see Tex. Pen. Code
§§ 9.32 & 9.42.
Despite Kirk’s wholesale reliance on his belief that deadly force
was immediately necessary to defend himself and his property, (1)
Kirk’s trial attorney did not introduce evidence of Beza’s and Diaz’s
prior violent acts—and both men had long criminal records—to show
their intent, motive, or state of mind. See Torres v. State, 117 S.W.3d
891, 894–95 (Tex. Crim. App. 2003). (2) Kirk’s trial attorney also did not
introduce evidence of Beza’s and Diaz’s character traits for violence to
demonstrate that they were in fact the first aggressors. See, e.g., Ex
parte Miller, 330 S.W.3d 610, 619 (Tex. Crim. App. 2009). And (3) Kirk’s
1

trial attorney failed to introduce evidence of Beza’s and Diaz’s character
traits for property crimes to demonstrate that they were in fact stealing
Kirk’s property. What’s more, (4) Kirk’s trial attorney failed to investigate and present evidence that Beza and Diaz had indeed stolen Kirk’s
metal detector, corroborating Kirk’s account of the night. And (5) Kirk’s
trial attorney then failed to object to the State’s closing-argument comparison of Kirk to Hitler. The State, too, was not without fault—(6) it
failed to disclose that Beza had stabbed a man named Cirilio Cruz-Guillen and had been involved in the murder of a man named Leonard Carl
Grimm.
Accordingly, comes now Douglas Lynn Kirk, Applicant, and files
this amended memorandum in support of his amended application for a
writ of habeas corpus under article 11.07 of the Code of Criminal Procedure. His conviction illegally confines and restrains him of his liberty
because his trial attorney did not provide the effective assistance the
United States and Texas Constitutions guarantee. See U.S. Const.
amend. VI & XIV; Tex. Const. art. I, § 10. Kirk respectfully requests
that he be released from confinement, that his conviction be set aside,
and that the case be set for re-trial.

2

1. History of the case
In April of 2010, Kirk moved from one Fort Worth home to another. RR4: 158. As he and a friend unloaded his things at the new
home, Alphonso Beza, who lived next door, approached and volunteered
to help. RR4: 178, 239. Kirk accepted Beza’s offer, and Beza then invited Pedro Diaz to further assist. RR4: 184.
After completing the task, the men proceeded to get extremely intoxicated (Beza and Diaz had been drinking even before joining Kirk).
RR3: 76; RR5: 37, 63-64. Eventually, Kirk announced that it was time
to call it a night, but, according to Kirk’s trial testimony, Beza and
Diaz—both covered in prison tattoos—refused to leave and then physically threatened Kirk and tried to steal from him. RR5: 175, 178-87.
Kirk ran into a bedroom closet and found his rifle. RR5: 191. He heard
the men coming down the hallway toward him, shouting expletives, and
he feared for his life. RR5: 194. Believing that the men had armed
themselves with loaded guns from other rooms in the house, Kirk fired
three or four warning shots into the closet ceiling. RR5: 194-95. He then
moved across the bedroom and got down on one knee. RR5: 195. Seeing
Beza and Diaz facing him in the hallway leading to the front bedroom,

3

Kirk shot at both men, killing them. RR5: 196-98. Kirk further testified
that he shot the men to keep them from robbing him. RR5: 196-97.
Kirk did not call the police. Instead, he fled from the scene, and after Beza’s and Diaz’s bodies were discovered, Kirk was arrested and
charged in a three-count indictment with capital murder (murdering
both men), murder (murdering Beza), and murder (murdering Diaz).
Exhibit 1; see Tex. Pen. Code § 19.02 & 19.03. After his first trial ended
in a hung jury, a second was held in February 2012. Pursuant to Kirk’s
testimony, the jury was instructed to find Kirk not guilty if it believed
that he killed Beza and Diaz in defense of himself or his property. Exhibit 2; see Tex. Pen. Code §§ 9.32 & 9.42. But Kirk’s trial attorney having failed to present evidence of Beza’s and Diaz’s characters for violence and property crimes to show that they were in fact the first aggressors and stealing, respectively, the jury found Kirk guilty as to the
count alleging Diaz’s murder. This Court granted a mistrial on the remaining counts. Exhibit 3. The jury assessed punishment at 47 years’
imprisonment. Exhibit 3.

4

On appeal to the Second Court of Appeals in Fort Worth, Kirk argued (1) that the evidence was insufficient to sustain the verdict because the State failed to disprove that he acted in self-defense and in
defense of property, (2) that this Court erred by overruling his objections to the State’s introduction of photographs of his previous home,
and (3) that this Court erred by giving the jury a modified Allen charge
after four days of deliberation. Kirk v. State, 421 S.W.3d 772 (Tex.
App.—Fort Worth 2014, pet. ref’d). With one justice dissenting as to the
Allen-charge ground, the court affirmed this Court’s judgment. Id.
Kirk then filed a petition for discretionary review in the Court of
Criminal Appeals, urging that the court of appeals ignored the plain
language of article 36.16 of the Code of Criminal Procedure in approving of this Court’s Allen charge. Kirk v. State, PD-0200-14 (Tex. Crim.
App. 2014). The Court refused the petition on June 18, 2014. Id. This
application now follows.
2. Ground One: Kirk’s trial attorney performed deficiently in
failing to introduce evidence of the victims’ prior violent
acts to show their intent, motive, or state of mind.
3. Ground Two: Kirk’s trial attorney performed deficiently in
failing to introduce evidence of the victims’ character for
violence to demonstrate that the victims were in fact the
first aggressors.
5

4. Ground Three:1 Kirk’s trial attorney performed deficiently
in failing to introduce evidence of the victims’ character
for property crimes to support that the victims were in fact
stealing from Kirk.
a. Strickland v. Washington and the standard for effective assistance
A criminal defendant has a Sixth Amendment right to effective assistance of counsel at every critical stage of the proceedings against
him. Powell v. Alabama, 287 U.S. 45, 69 (1932). To determine whether
to grant relief for ineffective assistance of counsel, courts apply the
standard set forth in Strickland v. Washington, 466 U.S. 668 (1984).
Strickland requires claimants to establish two components by but a preponderance of evidence: (1) deficient performance of counsel, and (2) but
for counsel’s error(s), there was a “reasonable probability” of a different
outcome at trial. Id. at 687.
To establish deficient performance, a petitioner must demonstrate
that counsel’s representation “fell below an objective standard of reasonableness.” Id. at 688. The Supreme Court has declined to articulate

Because these grounds are so closely intertwined, Kirk sets them out together to
avoid repetition.
1

6

specific guidelines for appropriate attorney conduct, instead emphasizing that “[t]he proper measure of attorney performance remains simply
reasonableness under prevailing professional norms.” Id. Essentially,
counsel is obliged to fulfill “certain basic duties,” including “a duty to
bring to bear such skill and knowledge as will render the trial a reliable
adversarial testing process.” Id.
As to the second Strickland requirement, counsel’s errors must be
considered cumulatively. Ex Parte Aguilar, No. AP-75,526, 2007 WL
3208751, *3 (Tex. Crim. App. 2007); Ex Parte Welborn, 785 S.W.2d 391,
396 (Tex. Crim. App. 1990). And a “reasonable probability” of a different
outcome is but a probability sufficient to undermine confidence in the
outcome. Strickland, 466 U.S. at 692-94. “[Strickland] specifically rejected the proposition that the [applicant] had to prove it more likely
than not that the outcome would have been altered.” Woodford v. Visciotti, 537 U.S. 19, 22 (2002). Instead, a reviewing court’s adjudication
of an ineffective-assistance claim should ultimately focus on “the fundamental fairness of the proceeding whose result is being challenged.”
Strickland, 466 U.S. at 696. “The benchmark for judging any claim of
ineffectiveness must be whether counsel’s conduct so undermined the

7

proper functioning of the adversarial process that the trial cannot be relied on as having produced a just result.” Id. at 686.
b. A defendant may—but Kirk’s attorney didn’t— introduce evidence of victims’ prior violent acts to show
their intent, motive, or state of mind and offer reputation and opinion testimony of the victims’ characters
to demonstrate that the victims were in fact the first
aggressors and stealing.
When a defendant is charged with an assaultive offense, he may
offer evidence of the victims’ character trait for violence to demonstrate
that the victims were the first aggressor, regardless of whether the defendant was aware of the victims’ violent character, so long as a witness
testifies about the victims’ character for violence only through reputation and opinion testimony. Miller, 330 S.W.3d at 618–22 (citing Tex. R.
Evid. 405(a)). In Miller, for example, the Court of Criminal Appeals approved of a defendant’s attorney’s introduction of evidence of the victim’s character for aggression through four witnesses who testified as to
the victim’s violence, especially when drinking. Id. at 619.
A defendant may also introduce evidence under Rule 404(b) of a
“victim’s prior specific acts of violence when offered for a non-character
purpose—such as his specific intent, motive for an attack on the defendant, or hostility—in the particular case.” Id. at 620; see Tex. R. Evid.
8

404(b)(2). “As long as the proffered violent acts explain the outward aggressive conduct of the deceased at the time of the killing, and in a manner other than demonstrating character conformity only, prior specific
acts of violence may be admitted even though those acts were not directed against the defendant.” Torres v State, 71 S.W.3d 758, 762 (Tex.
Crim. App. 2002). “The proper predicate for the specific violent prior act
by the deceased is some act of aggression that tends to raise the issue of
self-defense”—like refusing to leave, physically threatening Kirk, and
coming down the hallway shouting expletives (RR5: 194)—"which the
violent act may then help clarify.” Torres v. State, 117 S.W.3d 891, 895
(Tex. Crim. App. 2003) (emphasis in the original). The Court of Criminal Appeals has “not required that the specific, violent acts be directed
against the defendant to be admissible.” Torres, 71 S.W.3d at 761. “In
fact,” the Court has “found error in excluding such acts where they were
directed towards third parties. Id. at 761-62 (citing Jenkins v. State, 625
S.W.2d 324, 325–27 (Tex. Crim. App. [Panel Op.] 1981) (testimony concerning the deceased’s conviction for attempted murder of a third party
was admissible to show the deceased was the first aggressor); Lewis v.
State, 463 S.W.2d 186, 187-88 (Tex. Crim. App. 1971) (evidence that the

9

deceased often carried a knife and got in barroom brawls, along with a
threat against the defendant, was admissible)). “For purposes of proving
that the deceased was the first aggressor, the key is that the proffered
evidence explains the deceased’s conduct.” Id. at 762. “As long as the
proffered violent acts explain the outward aggressive conduct of the deceased at the time of the killing, and in a manner other than demonstrating character conformity only, prior specific acts of violence may be
admitted even though those acts were not directed against the defendant.” Id.
Alphonso Beza and Pedro Diaz had long and, at least in the case of
Beza, violent criminal histories. Beza was convicted twice for aggravated assault, twice for burglary, and once for robbery. Exhibit 4. In
Guadalupe County, Texas (the Seguin area), Beza stabbed a man
named Cirilio Cruz-Guillen and had been involved in the murder of a
man named Leonard Carl Grimm. See Exhibit filed June 24, 2019 (police reports), and Exhibit 6. Diaz, for his part, was convicted twice for
burglary and once for trespassing. Exhibit 5. And both men were members of the violent Mexican Mafia street gang. See Exhibit filed July 3,
2019 (parole records showing gang membership), and Exhibit 6. Beza’s

10

and Diaz’s violent criminal records and pasts could have been introduced at Kirk’s trial, then. Surely somebody could have testified as to
specific acts of violence and offered reputation and opinion testimony of
their character for violence—their own victims, or witnesses to their
crimes, or prison officials, immediately come to mind. And indeed, somebody could have: Jaime De La Garza, a former Seguin Police Officer. As
set forth in the attached affidavits, De La Garza knew both men well
and believed that Beza had stabbed Cruz-Guillen and Grimm, and De
La Garza could have attested to the fact that both men “had bad reputations for violence and their reputations in the community were that
they were violent persons.” Exhibits 6 and 7. Similarly, De La Garza
could have offered reputation and opinion testimony of Beza’s and
Diaz’s character for property crimes to demonstrate that they were in
fact stealing from Kirk: both men “were known burglars [and] thieves”
and “had reputations for being thieves and burglars.” Exhibits 6 & 7.
That, too, would have been admissible—nothing in Miller (or Mozon v.
State, 991 S.W.2d 841, 846 (Tex. Crim. App. 1999), the case on which it
principally relies) states that only a victim’s character for violence is admissible under the Rules of Evidence. To the contrary, Rule 404 states

11

only that “In a criminal case… a defendant may offer evidence of a victim’s pertinent trait….” Tex. R. Evid. 404(a)(3)(A).
Kirk’s jury didn’t hear anything about Beza’s and Diaz’s prior specific acts of violence or characters for violence or property crimes,
though. The only evidence that even remotely touched on the subject
was that the men were on parole and had prison tattoos. RR4: 241-42;
RR5: 175.
c. Kirk’s counsel’s failure to introduce evidence of the
victims’ specific acts of violence and characters fell
below an objective standard of reasonableness.
As to Strickland’s first prong, Kirk urges this Court that his attorney’s failure to present evidence of the victims’ prior specific acts of violence or characters for violence and property crimes amounted to deficient performance. At the June 25 hearing on Kirk’s third amended habeas application, counsel testified unequivocally that he would have introduced all of this evidence if he had known about it. But counsel testified that his investigator didn’t uncover any of it.
Counsel’s file reflects, however, that he was well aware of Beza’s
and Diaz’s criminal histories in Guadalupe County. Exhibit filed July
11, 2019 (McWithey affidavit). Counsel just didn’t pursue it further.

12

And counsel’s file further reveals that he failed to request Beza’s and
Diaz’s parole records, which would have quickly led him to the evidence
that Beza had stabbed Cruz-Guillen and Grimm, and that both men
were members of the Mexican Mafia. See Exhibits filed July 11, 2019
(McWithey affidavit), and July 3, 2019 (parole records showing gang
membership), and Exhibit 6. Indeed, as detailed in the affidavits filed
July 8 by undersigned counsel and by private investigator Stuart R.
Gary, it was Beza’s and Diaz’s parole records—making clear that they
had criminal histories in Guadalupe County, that they were members of
violent street gangs, and that Beza was suspected of stabbing CruzGuillen—that prompted undersigned counsel to send Gary to the county
and to issue open records requests to the authorities there; it didn’t
then take long to learn more of Beza’s stabbing of Cruz-Guillen and involvement in Grimm’s murder. See Exhibits filed July 8, 2019 (undersigned counsel and Stuart Gary affidavits).
Counsel’s failure to introduce evidence of the victims’ specific acts
of violence and characters was not strategic. It was a result of an incomplete investigation. Kirk thus urges this Court that counsel’s failure
amounted to deficient performance. See Wiggins v. Smith, 539 U.S. 510,

13

534 (2003) (trial counsel constitutionally ineffective when “incomplete
investigation was the result of inattention, not reasoned strategic judgment”).
5. Ground Four: Kirk’s trial attorney performed deficiently in
failing to investigate and present evidence that Beza and
Diaz had indeed stolen Kirk’s metal detector, corroborating Kirk’s account of the night.
At trial, Kirk testified that the confrontation began when, after
announcing it was time to call it a night, he realized that some of his
things—among them, a “nice metal detector”—had been moved while he
was outside. Kirk, 421 S.W.3d at 780; RR5: 183. Kirk thought that Diaz
and Beza were attempting to steal from him and that the “metal detector was already set over the fence,” and he told the men that he was going to call the police if anything was missing. Id.; RR5: 255. It was this
that prompted Diaz and Beza to threaten Kirk, “acting like they were
wanting some kind of altercation” and warning, “[w]e can make you
sorry if you fuck with us.” Id.
Detective Sarah Waters confirmed that a metal detector was not
found in Kirk’s house. RR4: 50. And, before being cut off, Kirk tried to
testify that “we do know it was stolen and linked to Johnny Beza by the

14

serial number….” RR5: 270. But Kirk’s counsel failed to present evidence that, in fact, a “Johnny Diaz” (not Beza) pawned Kirk’s metal detector not long after the shootings. In the State’s closing argument, the
prosecutors then urged that Kirk’s “story of self defense is made up”—
“[i]t’s a fabrication, and it is in fact a lie.” RR6: 64-65. “[W]hat happened
in this case was [Kirk] is intoxicated and he is on methamphetamine,”
“he’s having delusions, and he’s seeing ghosts, and he’s seeing demons,
and he fires off rounds in the closet while he’s hiding from the ghosts
and the demons.” RR6: 46-48. Beza and Diaz, the State argued, “were
standing outside talking, smiling, laughing. Nobody was chasing him
back in the house.” RR6: 46-48. “[W]hen [Beza] and [Diaz] stroll back
there with their flip-flops on and the can of beer in their hand, he jumps
out and murders both of them.” RR6: 46-48. The State further urged
that “the truth” was that if Kirk “really and truly was afraid of the Beza
and Diaz scam… he never would have acted the way he did.” RR6: 6465. “If you feel like people are stealing from you, you don’t turn around
and put your back to them and walk out of the house. RR6: 64-65.
In fact, Kirk’s story wasn’t made up. He did have a metal detector,
and it was pawned by Johnny Diaz. Exhibit 8. And counsel knew about

15

it—he had obtained a subpoena for the pawn shop. Exhibit 9. But counsel failed to present evidence of as much.
No reasonable trial strategy could justify trial counsel’s failure.
Indeed, “[t]here can be no strategic or tactical benefit in withholding exculpatory evidence from a jury which is deciding whether the attorney’s
client is guilty or innocent.” Ex parte Alaniz, 583 S.W.2d 380, 384 (Tex.
Crim. App. 1979). The only possible explanation Kirk can imagine is
that counsel thought, pursuant to the State’s first amended Brady notice, that the metal detector wasn’t stolen until after the shootings. Exhibit 8. But, again, Detective Sarah Waters confirmed that responding
officers did not find any metal detector in Kirk’s house. RR4: 50. And no
metal detector appears in the crime scene photos. State’s Trial Exhibits
16-128, 198-227. The metal detector couldn’t have been taken after the
shootings, then—it was taken by Beza and Diaz, just as Kirk said. Here,
again then, Kirk urges that his counsel’s performance was deficient. See
Andrews, 159 S.W.3d at 102 (“…when no reasonable trial strategy could
justify the trial counsel’s conduct, counsel’s performance falls below an
objective standard of reasonableness as a matter of law….”).

16

6. Ground Five: Kirk’s trial attorney performed deficiently in
failing to object to the State’s closing argument comparing
Kirk to Adolf Hitler and Joseph Stalin.
Just about the last thing the jury heard before considering Kirk’s
guilt was the State’s rebuttal closing argument putting Kirk in the company of Hitler and Stalin:
The underlying subtext of this entire defense has been, “Oh,
the Defendant is a good guy, professional. [Beza and Diaz] are
just thugs. Who cares about their lives?” If you are a student
of history, you know that the worst crimes of the last century
were committed by people who thought they had the right to
decide who should live and die. Hitler, Stalin. They all
thought they had the right to decide who was more important
than the next guy, who was worthy of life and who was not.
lt would be the most brutal error you could possibly make to
make a decision based on that kind of prejudice. The State is
not asking you to do that. We’re not asking you to make a decision on emotion. We’re asking you to make a decision based
on logic and common sense and facts and evidence. And it is
important to remember that it is the State of Texas who is
asking you to do that.
RR6: 72-73. Kirk’s trial counsel did not object.
Counsel should have. There are four general areas of proper jury
argument: (1) pleas for law enforcement, (2) summations of the evidence, (3) reasonable deductions from the evidence, and (4) responses to
arguments from opposing counsel. Jackson v. State, 17 S.W.3d 664, 673
(Tex. Crim. App. 2000). Arguments referencing matters that are not in
17

evidence and may not be inferred from the evidence, on the other hand,
are usually “designed to arouse the passion and prejudices of the jury
and as such are highly inappropriate.” Borjan v. State, 787 S.W.2d 53,
57 (Tex. Crim. App. 1990).
The Amarillo Court of Appeals has twice held that a closing argument comparing a defendant to notorious murders is reversible error. In
Brown v. State, the prosecutor compared the appellant to Jeffrey Dahmer, John Wayne Gacy, and Ted Bundy, arguing that, although the appellant claimed to be mentally ill or legally insane, so did they. 978
S.W.2d 708, 713–14 (Tex. App.—Amarillo 1998, pet. ref’d). In finding reversible error, the court explained:
Comparing an accused or his acts to those of a notorious criminal is, according to the Texas Court of Criminal Appeals, an
improper and erroneous interjection of facts not in the record.
[citations omitted]. Here, the State’s comments are tantamount to comparing appellant and his defense to Jeffrey Dahmer, John Wayne Gacy, and Ted Bundy and the defenses they
raised. Each of the three individuals to which he was compared was or is a notorious serial murderer whose despicable
acts remain fresh in the collective mind of the public. And, in
arguing as it did, the State not only invoked the memory of
the horrific crimes they committed but also effectively asked
the jurors to punish appellant like they were punished, that
is, by the assessment of imprisonment.
978 S.W.2d at 714.

18

Then in Mills v. State, the State’s argument was again “tantamount” to comparing the appellant and his defense to Gacy and Dahmer and the defenses they raised (in an update, the State also included
9/11 hijacker Mohamed Atta). 07-08-0348-CR, 2009 WL 3320249, at *2–
3 (Tex. App.—Amarillo Oct. 14, 2009), opinion supplemented on overruling of reh’g, 07-08-00348-CR, 2009 WL 4016418 (Tex. App.—Amarillo
Nov. 20, 2009, no pet.). Because, again, “the State’s argument relied on
facts not in evidence and was highly improper,” the court reversed the
appellant’s conviction even though there was “ample evidence to support the jury’s verdict of guilt.” Id.
Here, like there, the State’s argument was highly improper. Heinous though Gacy may be, Hitler was responsible for the deaths of some
17 million people; his name is shorthand for incomprehensible evil. And
yet counsel failed to object to the State’s comparison of Kirk to Hitler.
Here, again, counsel could have had no reasonable strategy in doing so.
Here, again, Kirk thus urges that his counsel’s performance was deficient. See Andrews, 159 S.W.3d at 102 (“…when no reasonable trial
strategy could justify the trial counsel’s conduct, counsel’s performance

19

falls below an objective standard of reasonableness as a matter of
law….”).
7. Cumulative Prejudice: Had counsel introduced evidence of
the victims’ prior violent acts, the victims’ violent characters, and evidence that corroborated Kirk’s account, and
had counsel objected to the State’s closing argument comparing Kirk to Adolf Hitler and Joseph Stalin, it’s reasonably likely the jury would have found Kirk not guilty.
As set out above, as to the second Strickland requirement, counsel’s errors must be considered cumulatively. Aguilar, 2007 WL
3208751 at *3; Ex Parte Welborn, 785 S.W.2d 391, 396 (Tex. Crim. App.
1990). And a reviewing court’s adjudication of an ineffective-assistance
claim should ultimately focus on “the fundamental fairness of the proceeding whose result is being challenged.” Strickland, 466 U.S. at 696.
Here, counsel’s errors taken together so undermined the proper
functioning of the adversarial process that the trial cannot be relied on
as having produced a just result. See id. at 686, 688; Sessums, 129
S.W.3d at 248 (“[T]here is a reasonable probability that, but for counsel’s error in failing to object to extensive, inadmissible, and critical testimony, the result of the proceeding would have been different.”). As to
counsel’s failures to present evidence of Beza’s and Diaz’s prior violent

20

acts and reputations, the Fifth Circuit’s opinion in Smith v. Dretke is instructive. There, the court remarked that “[c]learly, not having testimony strengthening a belief that [the victim] was the first aggressor or
that [the defendant] reasonably feared for his life prejudiced [the defendant] in this case.” Smith, 417 F.3d at 443–44. The court reasoned
that, though the defendant testified that he acted in self-defense, without corroboration in the form of evidence that the victim had a character for violence, the defendant’s “entire line of defense was easily discounted and disparaged by the prosecuting attorney.” Id. In sum, the
court held that counsel’s “[f]ailure to present the readily available testimony bearing on both the violence of [the victim] and [the defendant’s]
reasonable apprehension of danger seriously undermines our faith in
the outcome of the state court proceeding.” Id.
Similarly, in Gonzales v. State, Texas’s First Court of Appeals held
harmful the trial court’s refusal “to admit both opinion testimony of [the
victim’s] bad reputation and evidence of three violent acts by [the victim], all of which supported appellant’s claim of self-defense by showing
that [the victim] was the first aggressor.” 838 S.W.2d 848, 856 (Tex.
App.—Houston [1st Dist.] 1992, pet. ref’d). The court explained that,

21

“[g]iven the importance in [the] trial of deciding whether [the victim]
was the first aggressor, the exclusion of the evidence was harmful.” Id.
at 864 (citing United States v. Greschner, 647 F.2d 740, 743 (7th Cir.
1981) (“The excluded evidence related specifically to the defendant’s
self-defense theory. The trial court’s improper exclusion of the character
and motive evidence was seriously prejudicial to that theory. Therefore,
the improper evidentiary rulings require reversal of the defendant’s assault conviction and a new trial.”)).
Kirk’s case is strongly alike Smith and Gonzales. And like in
Smith, specifically, because Kirk’s testimony was not corroborated with
evidence of the victims’ characters for violence and property crimes, the
prosecutor in closing was able to wave off Kirk’s testimony—first as “lying” to “fit the castle doctrine,” and then as a “story of self-defense made
up,” “a fabrication” and “in fact a lie.” RR6: 48, 63-64. Counsel’s failure
to introduce evidence that Beza and Diaz in fact stole Kirk’s metal detector—corroborating Kirk’s testimony—then compounded the harm,
further emboldening the State to wave off the defense as wholly fabricated. The State’s closing-argument comparison of Kirk and Hitler was
then the final touch. Remember too that this was about as close of a

22

case imaginable—Kirk’s conviction came only in a second trial after the
first ended in a hung jury. And the jury found Kirk guilty of murdering
only Diaz, and only after this Court submitted an Allen charge.
In light of this, Kirk respectfully urges this Court that there is a
“reasonable probability” that the result of the proceeding would have
been different (1 & 2) had his trial attorney demonstrated that Beza
and Diaz were in fact the first aggressors by introducing evidence of
their specific prior acts of violence and character traits for violence and
(3) in fact stealing Kirk’s property by introducing evidence of their character traits for property crimes; (4) had Kirk’s trial attorney investigated and presented evidence that Beza and Diaz had indeed stolen
Kirk’s metal detector, corroborating Kirk’s account of the night; and (5)
had counsel objected to the State’s closing-argument comparison of Kirk
and Hitler. See Strickland, 466 U.S. at 694. The prosecution’s case
against Kirk was not overwhelming. And “where the record evidence in
support of a guilty verdict is thin, as it is here, there is more likely to be
prejudice.” Gersten, 426 F.3d at 614; see also Strickland, 466 U.S. at 696
(“a verdict . . . only weakly supported by the record is more likely to

23

have been affected by errors than one with overwhelming record support”); see also Gersten v. Senkowski, 426 F.3d 588, 614 (2nd Cir. 2005)
(“Where the record evidence in support of a guilty verdict is thin, as it is
here, there is more likely to be prejudice.”). That’s just what happened
here. Had Kirk’s counsel introduced evidence of the victims’ prior violent acts, the victims’ prior characters for violence and property crimes,
and evidence that corroborated Kirk’s account, and had counsel objected
to the State’s inflammatory closing argument, it’s reasonably likely the
obviously torn jury would not have found Kirk guilty beyond a reasonable doubt.
In sum, counsel’s errors were not isolated incidents; they pervaded
and prejudiced the entire defense. See supra; cf. McFarland v. State,
845 S.W.2d 824, 843 (Tex. Crim. App. 1992) (“isolated instances in the
record reflecting errors of omission or commission do not render counsel’s performance ineffective....”). Kirk urges this Court that, under
these circumstances, there is a reasonable probability that, but for
counsel’s repeated deficient performance, the jury would have found
him not guilty. Accordingly, Kirk urges this Court that his counsel’s deficient performance was prejudicial.

24

8. Ground Six: In failing to disclose that Beza stabbed Cirilio
Cruz-Guillen and had been involved in the murder of Leonard Carl Grimm in Guadalupe County, the State violated
Kirk’s right to due process.
The State, too, bore blame for the jury’s ignorance of Beza’s and
Diaz’s violent pasts. In Brady v. Maryland, the United States Supreme
Court “[held] that the suppression by the prosecution of evidence favorable to an accused upon request violates due process where the evidence
is material either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution.” Brady, 373 U.S. at 87. Thus,
Brady is violated when three requirements are satisfied: (1) the State
suppressed evidence; (2) the suppressed evidence is favorable to the defendant; and (3) the suppressed evidence is material. Harm v. State, 183
S.W.3d 403, 406 (Tex. Crim. App. 2006). “Incorporated into the third
prong, materiality, is a requirement that [the] defendant must be prejudiced by the state’s failure to disclose the favorable evidence.” Id.
“Favorable evidence is any evidence that, if disclosed and used effectively, may make a difference between conviction and acquittal and
includes both exculpatory and impeachment evidence.” Id. at 408 (citing
Thomas v. State, 841 S.W.2d 399, 404 (Tex. Crim. App. 1992) and

25

United States v. Bagley, 473 U.S. 667, 676 (1985)). “[E]vidence is material only if there is a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding would have been
different.” Bagley, 473 U.S. at 682; see also Ex parte Adams, 768 S.W.2d
281, 291 (Tex. Crim. App. 1989) (adopting Bagley standard of materiality). “A ‘reasonable probability’ is a probability sufficient to undermine
confidence in the outcome.” Bagley, 473 U.S. at 682. “Materiality is determined by examining the alleged error in the context of the entire record and overall strength of the state’s case.” Harm, 183 S.W.3d at 409.
Crucially here, “the Brady Rule… encompasses evidence unknown
to the prosecution but known to law-enforcement officials and others
working on their behalf.” Ex parte Lalonde, 570 S.W.3d 716, 724–25
(Tex. Crim. App. 2019) (citing Ex parte Reed, 271 S.W.3d 698, 726 (Tex.
Crim. App. 2008)). Indeed, “[i]t is well accepted that a prosecutor’s lack
of knowledge does not render information unknown for Brady purposes.” United States v. Perdomo, 929 F.2d 967 (3d Cir.1991). And the
Fifth Circuit—“[speaking] the most often on this issue”— “has declined
to excuse non-disclosure” even “in instances where the prosecution has
not sought out information readily available to it.” Id. (citing United

26

States v. Auten, 632 F.2d 478, 481 (5th Cir. 1980)). In Auten, for example “the appellant argued that his motion for a new trial should have
been granted because the prosecution failed to disclose that one of its
key witnesses had been convicted more than once.” Id. In response,
“[t]he prosecution argued that it did not withhold or suppress evidence
because the information was unknown to it.” Id. But because “[t]he
prosecutor had chosen not to run an NCIC [National Crime Information
Center] check on the witness because of the shortness of time,” “[t]he
court held that the prosecutor’s lack of knowledge was not an excuse for
a Brady violation.” Id. “In the interests of inherent fairness,” the prosecution is obligated to produce certain evidence actually or constructively
in its possession or accessible to it. Auten, 632 F.2d at 481 (quoting
Calley v. Callaway, 519 F.2d 184, 223 (5th Cir. 1975)). To do otherwise
would be “inviting and placing a premium on conduct unworthy of representatives of the United States Government.” Auten, at 481.
In short, prosecutors have an obligation to provide all information
that is readily available to them. Perdomo, 929 F.2d at 970. And that
Beza stabbed Cirilio Cruz-Guillen and had been involved in the murder
of Leonard Carl Grimm in Guadalupe County was readily available to

27

the State here. Again, as detailed in the affidavits filed on July 8 by undersigned counsel and by private investigator Stuart R. Gary, Beza’s
and Diaz’s parole files made clear that they had criminal histories in
Guadalupe County. Undersigned counsel then sent Gary to the county
and issued open records requests, and it didn’t take long to learn of
Beza’s stabbing of Cruz-Guillen and involvement in Grimm’s murder.
See Exhibits filed July 8, 2019 (undersigned counsel and Stuart Gary
affidavits). Certainly, Kirk’s prosecutors had access to the same parole
records, and were equally capable of contacting law enforcement in
Guadalupe County—indeed, it almost certainly would have been easier
for the State. It’s not just that trial counsel was ineffective, then, in failing to introduce evidence of Beza’s and Diaz’s prior violent acts and
characters for violence—in failing to disclose that Beza stabbed CruzGuillen and was involved in Grimm’s murder, the State violated Kirk’s
right to due process.
9. Conclusion
Though the critical issues at Kirk’s trial were whether, in shooting
Beza and Diaz, Kirk believed that deadly force was immediately necessary to defend himself and his property, Kirk’s trial attorney did not

28

demonstrate that Beza and Diaz—both of whom had long criminal records—were (1 & 2) in fact the first aggressors by introducing evidence of
specific prior acts of violence and their character traits for violence and
(3) in fact stealing Kirk’s property by introducing evidence of their character traits for property crimes. What’s more, (4) Kirk’s trial attorney
failed to investigate and present evidence that Beza and Diaz had indeed stolen Kirk’s metal detector, corroborating Kirk’s account of the
night. And (5) Kirk’s trial attorney then failed to object to the State’s
closing-argument comparison of Kirk to Hitler. The State, too, was not
without fault—(6) it failed to disclose that Beza had stabbed a man
named Cirilio Cruz-Guillen and had been involved in the murder of a
man named Leonard Carl Grimm in Guadalupe County. Accordingly, on
all six grounds, Kirk respectfully requests this Court recommend the
Court of Criminal Appeals set aside his conviction.
Respectfully submitted,
/s/ Gary Udashen
Gary Udashen
State Bar No. 20369590
gau@udashenanton.com
Brett Ordiway
State Bar No. 24079086
brett@udashenanton.com
29

Udashen Anton
2311 Cedar Springs Road, Suite 250
Dallas, Texas 75201
(214)-468-8100
(214)-468-8104 (fax)
Counsel for Applicant
Certificate of Service
I, the undersigned, certify that a true and correct copy of the foregoing document was electronically served to the Tarrant County District Attorney’s Office on July 16, 2019.
/s/ Gary Udashen
Gary Udashen

Certificate of Compliance
Pursuant to Tex. R. App. P. 73.1, I, the undersigned, certify that
this memorandum complies with:
1. the type-volume limitation of Tex. R. App. P. 73.1(d), because this
memorandum contains 6,026 words; and
2. the typeface requirements of Tex. R. App. P. 73.1(e), because this
memorandum has been prepared in 14-point Century Schoolbook,
a conventional typeface.
/s/ Gary Udashen
Gary Udashen

30

D297-W011409-00

FILED
TARRANT COUNTY
10/8/2019 2:03 PM
THOMAS A. WILDER
DISTRICT CLERK

NO. C-297-W011409-1266320-A
EX PARTE

DOUGLAS LYNN KIRK

§
§
§
§
§

IN THE 297th JUDICIAL
DISTRICT COURT OF
TARRANT COUNTY, TX

STATE’S PROPOSED MEMORANDUM, FINDINGS OF FACT AND
CONCLUSIONS OF LAW
The State proposes the following Memorandum, Findings of Fact and
Conclusions of Law regarding the issues raised in the present application for Writ of
Habeas Corpus.
MEMORANDUM
The applicant, DOUGLAS LYNN KIRK ( A

ca

), alleges his

incarceration is illegal because (1) he received ineffective assistance of trial counsel
(Grounds One, Two, Three, Four, and Five) and (2) the State failed to disclose
favorable material in violation of Brady v. Maryland (Ground Six). See Application,
p. 6-17. Specifically, Applicant alleges that trial counsel was ineffective for the
following reasons:
a.
b.
c.

Counsel failed to introduce evidence of the victims prior specific acts
of violence to show their intent, motive, or state of mind (Ground One),
Counsel failed to introduce evidence of the victim s character traits for
violence to demonstrate that the victims were the first aggressor
(Ground Two),
Counsel failed to introduce evidence of the victim s character traits for
property crimes to demonstrate that that the victims were, in fact,
stealing from Applicant (Ground Three),

d.

e.

Counsel failed to investigate and present evidence that Applicant s
metal detector had been stolen by the victims, before he killed them,
and then was pawned by Johnny Diaz, corroborating Applicant s
account of the night, and
Counsel failed to object to the State s closing argument comparing
Applicant to Adolf Hitler and Joseph Stalin.

See Application, p. 6-14.
In response to an Order from this Court, Applicant s trial counsel, Mr. Warren
St. John, filed an affidavit addressing Applicant s claims. Then, on June 25, 2019, a
hearing1 was held before the Honorable Charles P. Reynolds. Based on Applicant s
contentions and the evidence presented in the Writ Transcript, this Court should
consider the following proposed findings of fact and conclusions of law.
FINDINGS OF FACT
General Facts
1.

On February 16, 2012, Applicant was convicted by a jury of the first-degree
felony offense of murder. See Judgment, No. 1266320R.

2.

The jury then assessed punishment at forty-seven years confinement in the
Texas Department of Criminal Justice Institutional Division. See Judgment.

3.

The trial court s judgment was affirmed on direct appeal. See Kirk v. State,
421 S.W.3d 772 (Tex. App. Fort Worth 2014, pet. ref d).

1

The record from the writ hearing will be cited to as [WRR Pg. #], [WR A.Ex. #], [WR
S.Ex. #], etc.
2

Ineffective Assistance of Trial Counsel (Grounds One, Two, Three, Four, and Five)
4.

Applicant waited nearly five years to file this application for writ of habeas
corpus. Compare Application, p. 1; with Kirk v. State, 421 S.W.3d 772 (Tex.
App. Fort Worth 2014, pet. ref d).

5.

Mr. Warren St. John represented Applicant during the trial proceedings. See
Judgment.

6.

Applicant s original trial ended in a hung jury. See Criminal Docket Sheet,
No. 1197805D, Vol. I, p. 2 [CR 9]; Nunc Pro Tunc, No. 1197805D [CR 190].

7.

Applicant was re-tried for capital murder. See Indictment, No. 1266320R [CR
2]; Court s Charge, No. 1266320R, p. 3 [CR 237].

8.

The jury was given the option of convicting Applicant of two murders. See
Court s Charge, p. 3-4 [CR 237-38].

9.

Applicant was ultimately convicted of one lesser-included offense of murder.
See Judgment; Discharge of Jury After Receiving Charge of Court, No.
1266320 (capital murder) [CR 290]; Discharge of Jury After Receiving
Charge of Court, No. 1266320 (murder) [CR 291].

10.

The Second Court of Appeals summarized the evidence as follows:
Isabel Diaz testified that Beza, her fiancée, and Diaz, her
brother, had been drinking beer and playing with her kids
and nephew in front of her house on the evening of April
24, 2010. She testified that Beza and Diaz went next door
to [Applicant] s house around 11:00 p.m. to help
[Applicant] move in and that Beza had appeared happy
and indicated that there was free beer. When Isabel awoke
the following morning to find that Beza and Diaz had not
returned home, she became concerned, walked outside,
and saw [Applicant] and another man walking towards
[Applicant] s house. She asked [Applicant] if he knew
where Beza and Diaz were. [Applicant] told her that he did
not know where they were, so she went back inside her
house and called the police.

3

When first responders arrived and found a semiautomatic
rifle in the bushes underneath a broken window at
[Applicant] s residence, they searched the house and
found Beza s and Diaz s bodies in the hallway. A detailed
search of the bedrooms and closets revealed boxes of
ammunition and numerous loaded weapons, including
rifles, shotguns, pistols, and hunting bows. Ballistics tests
later confirmed that the semiautomatic rifle found in the
bushes outside of [Applicant] s house fired the rounds that
killed Beza and Diaz. The police also found empty beer
cans and bottles of liquor scattered around the kitchen and
on the living room floor.
The police also searched the Clover Lane house and
discovered a variety of unusual objects including, among
other things, a plastic manikin torso and head suspended
by a noose around its neck, several pieces of animal skulls,
jawbones, antlers, and a faux human skeleton with a chain
locked to its ankle and a vice grip next to its knee.
Photographs of these items were admitted and published
to the jury over [Applicant] s objection.
[Applicant] s friend, Benavides, testified that he helped
[Applicant] move from the Clover Lane house to the Raton
Drive house on the night of April 24. He testified that he
had taken a final load of items back to the Raton house
around 10:30 p.m. after stopping at a gas station to pick up
two eighteen-packs of beer. Upon arriving at the Raton
Drive house, Benavides spoke with Beza, who identified
himself as the next door neighbor and offered to help them
unload [Applicant] s belongings. Benavides testified that
after [Applicant] had told Beza he could help them
unpack, Beza called Diaz and his nephew over to help as
well. Benavides further testified that once the unloading
was finished, the group sat on the front porch and began
drinking beer. He stated that everyone was friendly and
laughing and that they eventually moved inside and
continued drinking.

4

Benavides testified that he lit a joint and offered to share
it with the rest of the group, but they all declined. Diaz told
Benavides that he could not smoke pot because he was on
parole. Benavides testified that he left the house around
1:00 a.m. and that he thought [Applicant] had walked with
him outside to his truck, but he could not remember for
sure. He stated that the mood inside the house was light
and that nobody was arguing or upset when he decided to
leave. Benavides further testified that around noon the
next day, [Applicant] called him and asked what had
happened the night before.
Dennis Joiner, who lived across the street from the Raton
Drive house, testified that he had seen a white man and a
Hispanic man laughing and conversing in front of
[Applicant] s house when he came home from work on
April 25 at 1:00 a.m. As Joiner exited his car and walked
towards his house, he watched the men move back into
[Applicant] s home and claimed that the two seemed
cordial. He said that at one point, the white man stood in
the doorway and seemed to summon the Hispanic man into
the house. Joiner said the Hispanic man was smiling,
walked into the house, and stood in the doorway
conversing with someone inside. Joiner could not hear the
conversation but said that it did not appear that the men
were arguing. After the Hispanic man closed the door,
Joiner went into his house. Joiner said that he heard four
popping sounds around 1:35 a.m. or 1:45 a.m. and that he
thought it was his sister-in-law s dog that lives in his
house. He said that the four sounds could have occurred
later.
[Applicant] s friend, Jana Thompson, who lived next door
to the Raton Drive house, testified that she had helped
[Applicant] place newspaper on the Raton Drive house s
backdoor windows between 7:30 and 9:30 p.m. on April
24 before she went home to sleep. She further testified that
[Applicant] had appeared at her door around 5:00 the next
morning, said he was scared, and appeared to be in shock.
She stated that she had told [Applicant] that everything
5

was going to be fine and that he kept repeating that he was
scared before he turned around and walked away.
[Applicant] s friend Cody White, who lived next door to
the Clover Lane house, testified that [Applicant] came to
his house on April 25 and asked for a ride to the Raton
house. White said that [Applicant] was disheveled and was
ac
ca
a d a [Applicant] told him that he had
walked the four miles from the Raton Drive house to the
Clover Lane house the night before. When White asked
why he had walked the long distance, [Applicant] said that
he was being chased by the police, criminals, ghosts, or
demons. White drove [Applicant] to the Raton Drive
house, and when they saw Beza s and Diaz s bodies
inside, [Applicant] a d, I ca be e e I d d .
White testified that he had immediately left the Raton
Drive house when he saw Diaz s and Beza s bodies and
that he had called [Applicant] at 12:30 p.m. soon after
he left-to ask him what had happened the night before.
[Applicant] told White that he did not know what had
happened, and when White asked about the bodies on the
floor, [Applicant] told him that he had fired his assault rifle
at two people. White testified that when he told
[Applicant] he was going to call the police, [Applicant]
e
ded, D t call the police. I will take ca e f .
Medical examiner Marc Krouse testified that a toxicology
report showed that Beza and Diaz were highly intoxicated
at the time of the shootings. Krouse stated that Diaz was
so intoxicated close to five times the accepted level for
driving that he might have considered intoxication the
cause of death absent other evidence and that Diaz s
extreme intoxication would have impaired his gross motor
functions. The trial court also admitted into evidence
photographs showing a beer can near Beza s hand at the
crime scene.
Krouse s forensic examination showed that Beza was shot
three times in the back and once in the side of the head
6

behind the ear. Krouse testified that all of Beza s wounds
except one to his left arm had a distinct downward
trajectory that meant e a e e
a
ef
ef
e e a
.
Kirk v. State, 421 S.W.3d 772, 778 80 (Tex. App.
ref d).
11.

Fort Worth 2014, pet.

Counsel presented the following evidence:
[Applicant] testified that Thompson had met him and
Benavides at the Raton Drive house around 7:30 p.m. and
had helped him tape newspapers over the glass of the back
d
beca e e ad bee a e ed
e fac a e
e
had had a number of ... recent break- . Af e T
went home around 9:30 p.m., he and Benavides made a
final trip to the Clover Lane house to gather more of his
belongings. When they arrived back at the Raton house
around 11:00 p.m., Beza was next door and asked if they
needed help unloading. [Applicant] testified that Beza and
Diaz helped them move his box spring and mattress inside
the house and that afterwards the group began drinking.
[Applicant] stated that he had noticed what appeared to be
prison tattoos on both Beza and Diaz, and when he asked
Diaz how he got e a
, Da
d
e
ab
a
e .
[Applicant] testified that after walking Benavides to his
car at around 1:00 a.m., he thought that Diaz and Beza
were attempting to steal from him because some items in
the house had been moved while [Applicant] was outside.
He said that he had asked the men to leave and the group
went to the front yard. He stated that he had told the men
that he was going to call the police if anything was missing
and that the men threatened him and prevented him from
closing the door when he attempted to return inside.
[Applicant] e f ed a e
e be a ac
e
e ee a
e
d f a e ca
a d a e
ad d
, We ca
a e
f
f c
. He f
e e fied that he had asked the men to leave
7

a second time and that they continued to threaten him and
refused to leave.
[Applicant] testified that he ran into the front bedroom
closet, found his rifle, and heard the men coming down the
hallway toward him. They began shouting expletives, and
he feared for his life. Believing that the men had armed
themselves with loaded guns from other rooms in the
house, he fired three or four warning shots into the closet
ceiling. After firing the warning shots, [Applicant] moved
across the bedroom and got down on one knee. He saw
Beza and Diaz facing him in the hallway leading to the
front bedroom, so he shot at both men.
[Applicant] testified that after the shooting, he exited the
house by breaking through the bedroom window, ran next
door to Thompson s house, and began knocking on her
door and ringing the doorbell. When Thompson refused to
let him in, [Applicant] made his way on foot back to the
Clover Lane house and knocked on White s door.
[Applicant] admitted during cross-examination that he had
dW e
ca
e
ce a d a e
d a e
ca e f e
a
. [Applicant] also testified that after
he had seen the bodies, he had left the house and had called
his work colleague Robert Nickerson.
Nickerson testified that [Applicant] had called him several
times around 1:00 p.m. on April 25, 2010, but that he
missed the calls and called [Applicant] back around 2:30
p.m. Nickerson testified that [Applicant] seemed confused
about what had happened on the night of the shootings.
Nickerson said that [Applicant] had told him he thought
he had shot two people who had helped him move into his
new house. Nickerson also testified that he had asked
[Applicant] whether he had been robbed and that
[Applicant] ad a d, I d
e e be . [Applicant]
testified that after speaking with Nickerson, he had
contacted an attorney and then had turned himself in to the
police.
8

Kirk v. State, 421 S.W.3d 772, 780 (Tex. App.

Fort Worth 2014, pet. ref d).

12.

When Mr. St. John was appointed, Applicant was confused, disoriented,
overwhelmed, and did not remember much about the night he shot the victims.
[WRR 15-16; WR S.Ex. 4, p. 2]

13.

Mr. St. John spent hours and hours of time working with Applicant to
remember what occurred the night he shot the victims. [WRR 16; WR S.Ex.
1, p. 2-3]

14.

Mr. St. John recalled that Applicant struggled to remember a lot of things until
Mr. St. John and he went through it many, many times. [WRR 16]

15.

Mr. St. John interviewed witnesses and investigated the crime scene. [WR
S.Ex. 1, p. 2]

16.

Mr. St. John conducted at least 323.5 hours of investigation in this case,
including trial preparation and reviewing the trial transcript from the first trial
for the second trial. [WR S.Ex. 1; WR S.Ex. 2; WR S.Ex. 3]

17.

Mr. St. John was appointed a medical expert. [WR S.Ex. 1, p. 2]

18.

Mr. St. John was appointed an investigator, Mr. Doug Lambertsen. [WR
S.Ex. 1, p. 2; WR S.Ex. 4; WR S.Ex. 5]

19.

Mr. Lambertsen conducted at least 207 hours of investigation in this case,
including trial support. [WR S.Ex. 4; WR S.EX. 5]

20.

Mr. Lambertsen interviewed the State s witnesses and independently tracked
down, and interviewed, several possible witnesses. [WR S.Ex. 4; WR S.Ex.
5]

21.

Applicant presents evidence that an officer with Guadalupe County Juvenile
Services in Seguin, Texas, could have testified that he believed Victim Beza
stabbed someone in 1985. [WR A.Ex. 2, p. 1]

22.

Victim Beza was not convicted for a 1985 stabbing. [WR A.Ex. 2, p. 1]

9

23.

Applicant presents evidence that an officer with Guadalupe County Juvenile
Services in Seguin, Texas, could have testified that he believed Victim Beza
stabbed someone to death in 1989. [WR A.Ex. 2, p. 2]

24.

Victim Beza was not convicted for a 1989 stabbing death. [WR A.Ex. 2, p.
2]

25.

There is no evidence, or allegation, that Victim Beza was in possession of a
knife when Applicant killed him.

26.

There was evidence at trial that the victims told Applicant that they had been
in prison and were on parole. [5 RR 175]

27.

There is no evidence that Applicant was aware that the victims had reputations
for violence or thievery when he killed them.

28.

Applicant presents evidence that an officer with Guadalupe County Juvenile
Services in Seguin, Texas, could have testified that he believed Victim Beza
and Victim Diaz had reputations for violence and that their reputations in the
Seguin community were that they were violent persons. [WR A.Ex. 3, p. 1]

29.

Applicant presents evidence that an officer with Guadalupe County Juvenile
Services in Seguin, Texas, could have testified that he believed Victim Beza
and Victim Diaz had reputations for being burglars and thieves, and drug
dealers in the Seguin community. [WR A.Ex. 2, p. 1; WR A.Ex. 3, p. 1]

30.

Mr. St. John subpoenaed the victims pen packets from the Texas Department
of Criminal Justice. [WRR 14; WR S.Ex. 4, pg. 9]

31.

Mr. St. John received the victims pen packets from the Texas Department of
Criminal Justice. [WRR 14]

32.

Mr. St. John had access to the victims DPS criminal history and TCIC/NCIC
records through the Tarrant County open-file policy. [WRR 13-14]

33.

Mr. Lambertsen attempted to get the parole records from the board of pardons
and paroles in Austin but he was unable to get them. [WRR 21, 32, 34]

34.

Neither Mr. St. John nor Mr. Lambertsen sent an open records request for the
victims parole records. [WRR 32]
10

35.

Mr. St. John instructed Mr. Lambertsen and Mr. Gunn to uncover everything
they could about the victims, including finding out what they could from
Seguin. [WRR 16-17]

36.

Mr. St. John wanted to uncover the victims history to formulate the defense
that the victims were the first aggressors. [WRR 17]

37.

Mr. St. John is confident that Mr. Lambertsen did a very thorough background
check of the victims. [WRR 20]

38.

Mr. Lambertsen canvassed the neighborhood near the crime scene to find out
what he could about the victims. [WRR 31, 62]

39.

Mr. Lambertsen attempted to find out anything he could from where the
victims grew up. [WRR 31]

40.

Mr. Lambertsen contacted people in Seguin regarding the victims
background and history. [WRR 19, 22]

41.

Mr. St. John recalled that Mr. Lambertsen contacted Mr. Lambertsen s law
enforcement contacts in Seguin but found out no information. [WRR 19, 22]

42.

Mr. St. John does not recall whether Mr. Lambertsen contacted the Guadalupe
County Sheriff s Department or the Seguin Police Department. [WRR 22]

43.

Mr. Lambertsen was unable to get any information from law enforcement in
Seguin regarding the victims criminal histories and background. [WRR 22,
23]

44.

Mr. Lambertsen never advised Mr. St. John that he spoke Mr. De La Garza.
[WRR 23]

45.

Mr. St. John s defense team thoroughly investigated this case.

46.

Mr. St. John s investigation was the result of reasonable trial strategy.

47.

Over the State s objection, Mr. St. John successfully was able to put in
evidence before the jury that the victims were both on parole. [4 RR 227-30]

11

48.

Mr. St. John was able to repeatedly remind the jury, through testimony and
a
e , a e c
ee
,
a ee ,
a e, ad bee o
, ee
a e , a d ad
a
. [4 RR 242; 5 RR 174, 175,
321-22; 6 RR 50, 54, 59]

49.

Mr. St. John tracked down information regarding Applicant s metal detector
being pawned after the murders. [WRR 37]

50.

Mr. St. John did not present evidence that the metal detector had been pawned
because he concluded, based on the crime scene photographs, that the metal
detector was still in the house after the victims were murdered. [WRR 38;
S.Ex. 36-38, 46-48]

51.

Mr. St. John concluded that the pawn tickets would not corroborate
Applicant s account of the night because the victims had not removed the
metal detector from the house. [WRR 38, 39-40, 46-48]

52.

Mr. St. John s decision to not present evidence that Applicant s metal detector
was later stolen and pawned after the murders, because the victims did not
steal it, was the result of reasonable trial strategy.

53.

During closing argument, defense counsel repeatedly referred to Applicant s
professional job, his work history, and the fact that the victims were lowly,
parolee thugs. [6 RR 50-61]

54.

During the State s closing argument, it made the following argument, in part,
But the Defense has invited you repeatedly in this case, and
Counsel just did it in his final argument again, calling [the
victims] thugs. He has invited you to make a decision based on
your deciding who gets to live and who gets to die, whose life is
worth more, whose life is more important.
T e de
be
f
e e defe e a bee , O , e
Defendant is a good guy, professional. These people are just
thugs. Who cares about their lives? If you are a student of
history, you know that the worst crimes of the last century were
committed by people who thought they had the right to decide
who should live and die. Hitler, Stalin. They all thought they

12

had the right to decide who was more important than the next
guy, who was worthy of life and who was not.
It would be the most brutal error you could possibly make to
make a decision based on that kind of prejudice. The State is not
asking you to do that. We re not asking you to make a decision
on emotion. We re asking you to make a decision based on logic
and common sense and facts and evidence. And it is important
to remember that it is the State of Texas who is asking you to do
that.
Because if the facts and evidence are on your side, then you are
in the right, and decisions should be made with cool heads based
on those facts and not based on some spurious idea that some
people have more right to walk this earth than others.
[6 RR 72-73] (emphasis added)
55.

Taken as a whole, the State was arguing that the jury not be like Hitler and
Stalin and make its decision based on whose life the jury believed was more
important. [6 RR 72-73]

56.

Taken as a whole, the State was not comparing Applicant to Hitler or Stalin
during its closing argument. [6 RR 72-73]

57.

The State s argument that the jury not be like Hitler or Stalin was a plea was
law enforcement. [6 RR 72-73]

58.

The State s argument that the jury not be like Hitler or Stalin was an answer
to argument of opposing counsel. [6 RR 72-73]

59.

Mr. St. John did not object to the State s references to Hitler and Stalin during
its closing arguments because, he concluded, there was no legal reason to
make the objection. [WRR 41-42]

60.

Mr. St. John
Sa
d
strategy.

61.

Mr. St. John s affidavit is credible and supported by the record.

dec
b ec
e e f e
d H e a d
e S a e s closing argument was the result of reasonable trial

13

63.

Mr. St. John s testimony at trial was credible and supported by the record.

64.

Counsel s actions were the result of reasonable trial strategy.

65.

The Second Court of Appeals held the evidence was legally sufficient to
support the jury s rejection of Applicant s self-defense claim because
Although [Applicant] testified that he thought Diaz and Beza
were threatening him and stealing from him, testimony from
White and Nickerson indicated that [Applicant] was not sure
what had happened within twelve hours of the shooting and even
after seeing the bodies. As the sole judge of credibility, the jury
was free to disregard [Applicant] s testimony. See Tex. Code
Crim. Proc. Ann. art. 38.04; Wise [v. State], 364 S.W.3d [900,]
903 [(Tex. Crim. App. 2012)].
[Applicant] left the scene immediately after the shooting; did not
ask Thompson for help or to call the police when he went to her
house several hours after the alleged time of the shooting; and
after confirming that he had shot Diaz and Beza, he told White
not to call the police, fled the scene again, and did not contact the
authorities to report the shooting until the evening of April 25,
2010. Flight is circumstantial evidence from which a jury may
infer guilt. See Devoe v. State, 354 S.W.3d 457, 470 (Tex. Crim.
App. 2011).
[T]he record reflects that both Diaz and Beza were extremely
intoxicated. The jury could have reasonably determined that due
to the men s intoxicated state, [Applicant] s belief that they were
going to hurt and rob him was unreasonable. The evidence also
indicated that Beza was likely carrying a beer when he was shot,
which weighs against [Applicant] s testimony that the men were
approaching him in a threatening manner.
[T]he jury was entitled to conclude that [Applicant] s belief that
deadly force was immediately necessary was unreasonable,
given that Beza was shot in the back several times and the
forensic evidence showed that the shots were fired at a downward
trajectory. See Saxton [v. State], 804 S.W.2d [910,] 913 [(Tex.
Crim. App. 1991)] (holding that there was sufficient physical
14

evidence to contradict an appellant s claim that the shooting was
an accident).
Because Diaz had earlier in the evening expressed his reluctance
to engage in criminal activity out of concern for his parole status,
the jury could have reasonably rejected [Applicant] s contention
that Diaz later attempted to assault and rob him. See Sorrells [v.
State], 343 S.W.3d [152,] 155 [(Tex. Crim. App. 2011)].
Kirk v. State, 421 S.W.3d 772, 781 (Tex. App.
66.

Fort Worth 2014, pet. ref d).

In light of all the evidence, no reasonable likelihood exists that the outcome
of the proceeding would have been different but for the alleged misconduct.

Brady (Ground Six)
67.

App ca a e e a e
ec
ad acce
e a e a e ec d ,
and were equally capable of contacting law enforcement in Guadalupe County
deed, a
ce a
d a e bee ea e f
e S a e to obtain
the records. See Application, p. 14b-15b.

68.

Applicant presents no evidence, or allegation, that any member of law
enforcement connected to the investigation and/or prosecution of this case
was in possession of the victims parole records. See Application;
Memorandum.

69.

Applicant presents no evidence, or allegation, that the State was in possession
of the victims parole records. See Application; Memorandum.

70.

Applicant presents no evidence, or allegation, that the any member of law
enforcement connected to the investigation and/or prosecution of this case
was in possession of any information regarding the victims actions in
Guadalupe County. See Application; Memorandum.

71.

Applicant presents no evidence, or allegation, that the State was in possession
of any information regarding the victims actions in Guadalupe County. See
Application; Memorandum.

15

CONCLUSIONS OF LAW
General Writ Law
1.

We a e e ea ed
e d a e b de f
f a abea a
ca
on the applicant to prove his factual allegations by a preponderance of the
e de ce. Ex parte Brown, 158 S.W.3d 449, 461 (Tex. Crim. App. 2005).

2.

Relief may be denied if the applicant states only conclusions, and not specific
facts. Ex parte McPherson, 32 S.W.3d 860, 861 (Tex. Crim. App. 2000).
S
ead
provide an inadequate basis upon which to grant relief in
abea ac
. Ex parte Garcia, 353 S.W.3d 785, 789 (Tex. Crim. App.
2011) (11.072 proceeding).

Ineffective Assistance of Trial Counsel (Grounds One, Two, Three, Four, and Five)
3.

An applicant s delay in seeking habeas corpus relief may prejudice the
credibility of the claim. Ex parte Young, 479 S.W.2d 45, 46 (Tex. Crim. App.
1972).

4.

The two-prong test enunciated in Strickland v. Washington applies to
ineffective assistance of counsel claims in non-capital cases. Hernandez v.
State, 988 S.W.2d 770, 771 (Tex. Crim. App. 1999). To prevail on his claim
of ineffective assistance of counsel, the applicant must show counsel s
representation fell below an objective standard of reasonableness, and there is
a reasonable probability the results of the proceedings would have been
different in the absence of counsel s unprofessional errors. Strickland v.
Washington, 466 U.S. 668, 688, 694, 104 S. Ct. 2052, 2064, 2068, 80 L.Ed.2d
674 (1984).

5.

The C
f C
a A ea
e
e a c
e
be e
positioned than the appellate court to judge the pragmatism of the particular
case, and that he made all significant decisions in the exercise of reasonable
fe
a d e . State v. Morales, 253 S.W.3d 686, 697 (Tex. Crim.
App. 2008) (citing Delrio v. State, 840 S.W.2d 443, 447 (Tex. Crim. App.
1992)).

16

6.

T e
e a da d f e e f c a
f effec e a
a ce f c
e
is whether, considering the totality of the representation, counsel s
ef
a ce a
effec e. Ex parte LaHood, 401 S.W.3d 45, 49 (Tex.
Crim. App. 2013) (citation omitted).

7.

Review of counsel s representation is highly deferential, and the reviewing
court indulges a strong presumption that counsel s conduct fell within a wide
range of reasonable representation. Salinas v. State, 163 S.W.3d 734, 740
(Tex. Crim. App. 2005); see Kimmelman v. Morrison, 477 U.S. 365, 383, 106
S.Ct. 2574, 91 L.Ed.2d 305 (1986) ( To establish a claim of ineffective
assistance of counsel, a habeas petitioner must overcome [a] strong
presumption of attorney competence. (c a
ed)).

8.

Support for Applicant s claim of ineffective assistance of counsel must be
f
ded
e ec d a d
the record must affirmatively
demonstrate e e
a e f e c a . Menefield v. State, 363
S.W.3d 591, 592 (Tex. Crim. App. 2012) (quoting Goodspeed v. State, 187
S.W.3d 390, 392 (Tex. Crim. App. 2005)).

9.

An applicant is not entitled to perfect or error-free counsel. Isolated instances
of errors of omission or commission do not render counsel s performance
ineffective; ineffective assistance of counsel cannot be established by
isolating one portion of trial counsel s performance for examination.
McFarland v. State, 845 S.W.2d 824 (Tex. Crim. App.1992), cert. den’d, 508
U.S. 963, 113 S.Ct. 2937, 124 L.Ed.2d 686 (1993).

10.

Def c e
ef
a ce ea
a counsel made errors so serious that
counsel was not functioning as the counsel guaranteed the defendant by the
Sixth Amendment. Ex parte Napper, 322 S.W. 3d 202, 246 (Tex. Crim.
App. 2010) (quoting Strickland, 466 U.S. at 687).

11.

[T e] c
ec d e
d
e ae
fc
e
at trial nor will the fact that another attorney might have pursued a different
c
e
af d
f effec e e . Blott v. State, 588 S.W.2d 588,
592 (Tex. Crim. App. 1979).

12.

[E]ac ca e
be d ed
S.W.3d 346, 353 (Tex. Crim. App. 2009).

17

e fac .

Davis v. State, 278

13.

Under Strickland, the defendant must prove, by a preponderance of the
evidence, that there is, in fact, no plausible professional reason for a specific
act or omission. Bone v. State, 77 S.W.3d 828, 836 (Tex. Crim. App. 2002).

14.

The extent of counsel s investigation into the victims personal and criminal
histories was reasonable.

15.

Counsel s overall investigation was the result of reasonable trial strategy.

16.

C
e
e
ed ad a ce e e a
e ;
e e , f e fa
raise a claim that has indisputable merit under well- e ed a , a d e
e
would have affected the outcome of the proceeding, counsel is ineffective for
failing to raise it. Ex parte Flores, 387 S.W.3d 626, 639 (Tex. Crim. App.
2012) (discussing ineffective assistance of counsel on appeal).

17.

A defendant, who is personally unaware of the victim s character for violence,
cannot present evidence of specific prior acts of violence by the victim under
Rule 404(a)(2) of the Texas Rules of Evidence. Ex parte Miller, 330 S.W.3d
610, 618-619 (Tex. Crim. App. 2009).

18.

Because Applicant only knew that the victims had been to prison, but had no
idea why or that they had any reputation or character for violence, specific
prior acts of violence by them would have been inadmissible. See Ex parte
Miller, 330 S.W.3d 610, 618-619 (Tex. Crim. App. 2009).

19.

A defendant may offer evidence of victim s character for violence to
de
ae a
e c
a
e f
a e
b
only through
reputation and opinion testimony under R e 405(a). Ex parte Miller, 330
S.W.3d 610, 619 (Tex. Crim. App. 2009) (emphasis in original).

20.

Because counsel s investigation into the victims personal and criminal
histories was reasonable, Applicant has failed to prove that counsel s inability
to discover evidence that the victims had reputations in Guadalupe County for
being violent thieves constituted deficient representation.

21.

Counsel s decision to not present additional evidence that Applicant s metal
detector had been stolen and pawned, because there was evidence that it had
not been stolen until after Applicant was arrested, was the result of reasonable
trial strategy.

18

22.

[T]
cce f
a e
a
a c
e s failure to object amounted to
ineffective assistance, the [defendant] must show that the trial judge would
a ec
ed e
e
c a b ec
. Ex parte Martinez,
330 S.W.3d 891, 901 (Tex. Crim. App. 2011); see Vaughn v. State, 931
S.W.2d 564, 566 (Tex. Crim. App. 1996).

23.

To be proper, jury argument must fall under one of the following areas (1)
summation of the evidence, (2) reasonable deduction from the evidence, (3)
answer to argument of opposing counsel, and (4) plea for law enforcement.
See Todd v. State, 598 S.W.2d 286 (Tex. Crim. App. 1980); Dunbar v. State,
551 S.W.2d 382 (Tex. Crim. App. 1977); Alejandro v. State, 493 S.W.2d 230
(Tex. Crim. App. 1973).

24.

The State s closing argument was proper because it was an answer to
argument of opposing counsel and a plea for law enforcement.

25.

Trial counsel s decision to not object to the State s closing argument because
there was no legal basis for the objection was the result of reasonable trial
strategy.

26.

Based on the facts of this case, including the fact that Applicant remembered
very little about committing the offense at the time counsel was appointed,
Applicant has failed to prove that trial counsel s representation fell below an
objective standard of reasonableness.

27.

A party fails to carry his burden to prove ineffective assistance of counsel
where the probability of a different result absent the alleged deficient conduct
sufficient to undermine confidence in the outcome is not established. See
Ex parte Saenz, 491 S.W.3d 819, 826 (Tex. Crim. App. 2016) (citation
omitted).

28.

[A] c
eed not determine whether counsel s performance was deficient
before examining the prejudice suffered by the defendant as a result of the
alleged deficiencies. The object of an ineffectiveness claim is not to grade
counsel s performance. If it is easier to dispose of an ineffectiveness claim on
the ground of lack of sufficient prejudice, which we expect will often be so,
that course should be followed. Strickland v. Washington, 466 U.S. 668,
697, 104 S.Ct. 2052, 2069, 80 L.Ed.2d 674 (1984) (emphasis added).

19

29.

Based on the facts of the case, Applicant has failed to show that a reasonable
likelihood exists that the outcome of the proceeding would have been different
had counsel presented more evidence regarding Diaz s criminal history.

30.

Based on the facts of the case, and the fact that Applicant was not convicted
for any offense as to Victim Beza, Applicant has failed to show that a
reasonable likelihood exists that the outcome of the proceeding would have
been different had counsel presented more evidence regarding Beza s criminal
history.

31.

Applicant has failed to show that a reasonable likelihood exists that the
outcome of the proceeding would have been different had counsel presented
evidence that the metal detector had been stolen from Applicant s home after
Applicant s arrest and pawned.

32.

Applicant has failed to show that a reasonable likelihood exists that the
outcome of the proceeding would have been different had counsel objected to
the State s closing argument.

33.

Based on the facts of this case, including the facts that Applicant remembered
very little about committing the offense at the time counsel was appointed and
Applicant was only convicted of the lesser-included offense of murder,
Applicant has failed to show that there is a reasonable probability that the
outcome of the proceeding would have been different but for the alleged
misconduct.

34.

Applicant has failed to prove that he received ineffective assistance of trial
counsel.

35.

This Court recommends that Applicant s first ground for relief be DENIED.

36.

This Court recommends that Applicant s second ground for relief be
DENIED.

37.

This Court recommends that Applicant s third ground for relief be DENIED.

38.

This Court recommends that Applicant s fourth ground for relief be DENIED.

39.

This Court recommends that Applicant s fifth ground for relief be DENIED.

20

Brady (Ground Six)
40.

A prosecutor has an affirmative duty to disclose favorable evidence that is
material either to guilt or punishment. See Brady v. Maryland, 373 U.S. 83,
86 (1963); McFarland v. State, 928 S.W.2d 482, 511 (Tex. Crim. App. 1996).

41.

Under its present incarnation, to succeed in showing a Brady violation, an
individual must show that (1) the evidence is favorable to the accused because
it is exculpatory or impeaching; (2) the evidence was suppressed by the
government or persons acting on the government s behalf, either inadvertently
or willfully; and (3) the suppression of the evidence resulted in prejudice (i.e.,
materiality). Evidence is material to guilt or punishment only if there is a
reasonable probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the
c e. Ex parte Reed, 271 S.W.3d 698, 726 27 (Tex. Crim. App. 2008).

42.

It is well-settled that the government may be charged with the knowledge of
its investigating agents. See Kyles v. Whitley, 514 U.S. 419, 437, 115 S.Ct.
1555, 131 L.Ed.2d 490 (1995).

43.

F
e
e f ed c
e d , the State includes, in addition to
the prosecutor, other lawyers and employees in his office and members of law
enforcement connected to the investigation and prosecution of the case. Ex
parte Miles, 359 S.W.3d 647, 665 (Tex. Crim. App. 2012) (citations omitted)
(emphasis added).

44.

Applicant has failed to prove that the Texas Department of Criminal Justice
Parole Division was connected to the investigation and prosecution of this
case.

45.

Applicant has failed to prove that law enforcement in Guadalupe County was
connected to the investigation and prosecution of this case.

46.

Applicant has failed to prove that the State had the victim s parole records.

47.

Applicant has failed to prove that the State contacted law enforcement in
Guadalupe County.

21

48.

Applicant has failed to prove that the State had evidence that victim Beza was
alleged to have stabbed Cirillio Cruz-Guillen in Guadalupe County.

49.

Applicant has failed to prove that the State had evidence that victim Beza was
the suspect in the murder of Leonard Carl Grimm in Guadalupe County.

50.

Brady and its progeny do not require prosecuting authorities to disclose
exculpatory information to defendants that the State does not have in its
posse
a d a
e . Hafdahl v. State, 805 S.W.2d 396,
399 (Tex.Crim.App.1990) (citing Thompson v. State, 612 S.W.2d 925, 928
(Tex.Crim.App.1981)).

51.

The State is not required to seek out exculpatory evidence independently on
appellant s behalf, or furnish appellant with exculpatory or mitigating
evidence that is fully accessible to appellant from other sources. Jackson v.
State, 552 S.W.2d 798, 804 (Tex. Crim. App. 1976).

52.

Applicant has failed to prove that the State had a duty to seek out exculpatory
evidence from the Texas Department of Criminal Justice Parole Division on
Applicant s behalf.

53.

Applicant has failed to prove that the State had a duty to seek out exculpatory
evidence from law enforcement in Guadalupe County on Applicant s behalf.

54.

Applicant has failed to prove that the State failed to disclose favorable
evidence.

55.

Applicant has failed to demonstrate that he was denied due process.

56.

This Court recommends that Applicant s sixth ground for relief be DENIED.

22

WHEREFORE, the State prays that this Court adopt these Proposed Findings
of Fact and Conclusions of Law and recommend that Applicant s grounds for relief
be DENIED.
Respectfully submitted,
SHAREN WILSON
Criminal District Attorney
Tarrant County
JOSEPH W. SPENCE
Chief, Post-Conviction
/s/Andréa Jacobs____________
Andréa Jacobs
Assistant Criminal District Attorney
State Bar No. 24037596
401 West Belknap
Fort Worth, TX 76196-0201
Phone:
817/884-1687
Facsimile: 817/884-1672
ccaappellatealerts@tarrantcountytx.gov
CERTIFICATE OF SERVICE
A true copy of the above has been e-served to Applicant, Mr. Douglas Lynn
Kirk, by and through his attorney of record, Mr. Gary Udashen, at
gau@udashenanton.com, 2311 Cedar Springs Road, Suite 250, Dallas, Texas 75201
on the 8th day of October, 2019.
/s/Andréa Jacobs____________
ANDRÉA JACOBS

23

CERTIFICATE OF COMPLIANCE
The total number of words in this State s Proposed Findings of Fact and
Conclusions of Law is 7017 words as determined by the word count feature of
Microsoft Office Word 2016.
/s/ Andréa Jacobs____________
ANDRÉA JACOBS

24

NO. C-297-W011409-1266320-A
EXPARTE

DOUGLAS LYNN KIRK

§
§
§
§
§

IN THE z97th JUDICIAL
DISTRICT COURT OF
TARRANT COUNTY, TX

FINDINGS AND ORDER
The Court adopts the State's Proposed Memorandum, Findings of Fact and
Conclusions of Law as its own and recommends that the relief DOUGLAS LYNN

KlRK ("Applicant") requests be DENIED.
The Court further orders and directs the Clerk of this Court to furnish a copy
of the Court's findings to Applicant, Mr. Douglas Lynn Kirk, by and through his
attorney of record, Mr. Gary Udashen, at gau@udashenanton.com, 2311 Cedar
Springs Road, Suite 250, Dallas, Texas 75201 (or to Applicant's most recent
address), and to the post-conviction section of the Criminal District Attorney's
Office.

FILED
THOMAS A. WiLDER, !:'!ST. CLERK
TARRANT COUNTY, TEXAS

NOV 111 2019
TIME _

BY

*"

__,_l11!J_~·fl,;~--­

~

DEPUTY

~'

CHARLES P. REYNOLDS

·~~,,,,.

TARRANT COUNTY
CRIMINAL MAGISTRATE

\~I\

